                                                                      Report No. WR-VS-MOA-0012-2010
                                                                                     September 30, 2010



Memorandum

To:            Director, Office of Acquisition and Property Management

               Assistant Secretary for Policy, Management and Budget
                (Attention: Associate Director for Finance, Policy and Operations)

From:      for Michael P. Colombo
               Regional Manager

Subject:       Verification Review of Recommendations One, Two, and Three of Evaluation
               Report Titled “Sole Source Contracting: Culture of Expediency Curtails
               Competition in DOI Contracting” (W-EV-MOA-0001-2007), February 2008

        The Office of Inspector General (OIG) has completed a verification review of three
recommendations presented in the subject evaluation report. The objective of the review was to
determine whether the recommendations were implemented as reported to the Office of Financial
Management, Office of Policy, Management and Budget. In a memorandum dated September 17,
2008, the Office of Financial Management (PFM) reported to the OIG that all of the
recommendations in the subject report had been implemented, and the evaluation report was
closed.

Background

        Our February 2008 evaluation report, “Sole Source Contracting: Culture of Expediency
Curtails Competition in the Department of Interior Contracting” (Report No.W-EV-MOA-0001-
2007), made three recommendations to the Department of Interior (DOI) relating to the
Department’s tendency to issue contracts quickly via sole source contracts that did not have
adequate written justifications and had material modifications which made them de-facto sole
source contracts. As a result, the Department has no assurance that the public gets the best value
for the goods and services it buys.

       In a June 9, 2008 memorandum, we considered all three recommendations unresolved
and not implemented due to no management decision and referred them to PFM for tracking and
implementation. In a memorandum dated September 17, 2008, PFM reported that all three
recommendations had been implemented, and the report was closed.




                         Office of Audits, Inspections, and Evaluations | Sacramento, CA
Scope and Methodology

       The scope of this review was limited to determining whether the Department took action
to implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation that DOI officials provided us relating to each of the three recommendations.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initially identified have actually been corrected. As
a result, this review was not conducted in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States.

Results of Review

        Our current review found that the Department implemented Recommendations 2 and 3
but did not implement Recommendation 1. We are requesting that PFM reinstate
Recommendation 1 and take appropriate follow-up action.

       Recommendation 1: To reinforce the use of competition in the acquisition process, we
       recommend that the role of the competition advocate be implemented as envisioned by
       Congress and codified in the Federal Acquisition Regulation.

        On July 23, 2010, DOI officials told us having the procurement chief as the competition
advocate is the prudent choice because only the procurement chief has the knowledge and ability
to perform the duty. According to the Federal Acquisition Regulation Subpart 6.501(b), it states
that the competition advocate shall not be assigned duties or responsibilities that are inconsistent
with 6.502, which outlines the duties and responsibilities of the competition advocate.
Accordingly, we believe that the procurement chief cannot perform the planning, oversight, and
reporting duties necessary to be an effective competition advocate because of the conflict of
interest the two roles present. Although the Office of Acquisition and Property Management
(PAM) issued the Department of Interior Acquisition Policy Release (DIAPR) 2008-10 which
enhances competition by requiring the competition advocate to review options and modifications
for non-competitive awards regardless of the dollar amount, we believe it is not enough, and the
procurement chief still has conflicting duties. As a result, we concluded that this
recommendation has not been implemented.

       Recommendation 2: To reduce the number of sole source contracts that are issued
       throughout the fiscal year, we recommend that program personnel closely coordinate
       their contractual needs with procurement personnel to promote a seamless acquisition
       planning process.

        On September 12, 2008, PAM issued the DIAPR 2008-10 which stated that acquisition
officials are expected to engage in the acquisition planning in conjunction with their counterparts
in the program offices. In addition we found that the Federal Acquisition Certification for
Program and Project Managers program policy guide stated, "To ensure achievement of intended
outcomes and mission goals, collaborative partnerships between Program and Project Managers
and Contractive Professionals must exist." In the Capital Planning and Investment Control guide,


                                                 2
it stated that the Integrated Project Team will vary in size and acquisition disciplines depending
on the phase of the project, but must always contain a qualified project manager and contracting
officer. Furthermore, a Department official told us that ongoing coordination and collaboration
between the acquisition and program/project management community are essential to meeting
the Department's mission goals. As a result, we consider Recommendation 2 to be resolved and
implemented.

       Recommendation 3: To reduce the use of sole source contracts, managers and other
       personnel with oversight roles must be held accountable. Specifically, measurable goals
       should be established to minimize the use of contracts awarded without full and open
       competition. These goals along with the results should be posted on the Internet. Also,
       contracting emphasis should be shifted to meet other small business program goals, such
       as the goal for the Service-disabled vets, once Section 8(a) goals are met. Lastly, the
       Department’s Office of Acquisition and Policy Management (PAM) should continue its
       oversight in the form of acquisition management reviews (AMRs). These AMRs should
       include a review of:

       •   Sole source contracts to ensure that competition was used to the maximum extent
           possible; applicable sole source contracts were submitted for independent review to
           the competition advocate; market research was conducted and a fair and reasonable
           price established; and written justifications for other than full and open competition
           were adequately prepared, convincing, and documented;
       •   Section 8(a) contracts to ensure that fair market prices were established and the $3.5
           million contract cost threshold for full and open competition among 8(a) firms is
           followed;
       •   Competed and modified contracts to ensure that the modifications did not
           substantially change the original scope of work; and
       •   AMRs performed by the individual bureaus.

       In addition, PAM should ensure that the recommendations resulting from the findings of
       AMRs are implemented by the individual bureaus and Departmental offices.

         In our review we found that the Department has set a competition goal for 75% of
contract dollars to be competed. In addition, we learned the Department has plans to improve the
reporting in Federal Procurement Data System – Next Generation and it posts the written
justifications for non-competed contracts online at FedBizOpps.Gov. For fiscal year 2010, the
Department no longer has a Small Business Administration Section 8(a) goal.

       The Department continues to conduct AMRs, and conducts target reviews for issues
found in past reports. In addition, PAM conducts follow-up of their findings. As a result, we
concluded that this recommendation is implemented.

Conclusion

       We informed PAM officials of the results of this review on September 27, 2010.

       If you have any questions about this report, please contact me at (916) 978-5653.

                                                 3
cc: Eric Eisenstein, Branch Chief, Internal Control and Audit Follow-up, Office of Financial
     Management (MS 2557-MIB)
    Nancy Thomas, Audit Liaison, Department of the Interior
    Alexandra Lampros, Liaison Officer, Office of the Secretary
    Heads of Bureaus and Offices
    Audit Liaison Officers




                                               4
